No: 20-5030
IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020
JIMMY LEE FRANKLIN,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
CERTIFICATE OF SERVICE
I certify that on this 22nd day of October 2020, in accordance with SUP. CT. R.
29, eleven copies of the Reply Brief and Certificate of Service, were served
electronically with the Clerk of the Court using CM/ECF, and filed by third party
commercial carrier for delivery upon Noel Francisco, Solicitor General of the United
States, Room 5614, Department of Justice, 950 Pennsylvania Avenue, N.W.,
Washington, D.C. 20530-0001.
MICHAEL CARUSO
Federal Public Defender
Fort Lauderdale, Florida
October 22, 2020

By:

s/ Brenda G. Bryn
Brenda G. Bryn
Assistant Federal Public Defender
One East Broward Boulevard, Suite 1100
Fort Lauderdale, Florida 33301-1842
Telephone No. (954) 356-7436

